                                                                                 Office Of Inspector General
                                                                                 Office Of Audit Services
         DEPARTMENT OF HEALTH & HUMAN SERVICES

                                                                                 Region II
                                                                                 Jacob K. Javlts Federal Building
                                             October 20, 2008	                   26 Federal Plaza
                                                                                 New York, NY 10278 .


Report Number: A-02-04-01015

Richard F. Daines, M.D.
Commissioner
New York State Department of Health
Empire State Plaza, Room 1408
Corning Tower
Albany, New York 12237

Dear Dr. Daines:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled "Review of Medicaid Graduate Medical Education Revenue
in New York State." We will forward a copy of this report to the HHS action official noted on
the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C. § 552, as amended by
Public Law 104-231, OIG reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5). Accordingly, this report
will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact James Cox, Audit Manager, at 518-437-9390 extension 222 or through e-mail at
James.Cox@oig.hhs.gov. Please refer to report number A-02-04-01015 in all correspondence.

                                             Sincerely,



                                            J=-!~ Ekit
                                             Regional Inspector General
                                              for Audit Services

Enclosure
Page 2 - Richard F. Daines, M.D.


Direct Reply to HHS Action Official:

Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children's Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Dlinois 60601
Department of Health and Human Services
 

             OFFICE OF 
 

        INSPECTOR GENERAL 
 





     REVIEW OF MEDICAID 
 

     GRADUATE MEDICAL 
 

  EDUCATION REVENUE IN NEW 
 

         YORK STATE
 





                     Daniel R. Levinson
 

                      Inspector General 
 


                       October 2008
 

                       A-02-04-01015
 

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY 
 


BACKGROUND

The Office of Management and Budget requested that we review Medicaid payments to hospitals
for medical education because of concerns regarding the growth of the payments and questions
about whether Medicaid funds were involved in intergovernmental transfers.

Pursuant to section 1886(h) of the Social Security Act, Medicare funds the graduate medical
education (GME) program. Under Medicaid, States may elect in their State plan to further fund
the GME program, subject to approval by the Centers for Medicare & Medicaid Services (CMS).
The Medicaid program offers more flexibility than Medicare in that States have latitude in
determining how to best use available funds.

In New York State, the Department of Health (Health Department) operates the Medicaid
program.

Similar to Medicare, the Health Department pays hospitals for Medicaid GME under two
categories – direct medical education (DME) and indirect medical education (IME). Payments
for DME are intended to help cover costs incurred by hospitals for medical residents and
teaching faculty, including salaries, fringe benefits, and allocations of overhead. In addition, it
also covers costs associated with hospital-based physicians who are neither residents nor
teaching physicians. Because any hospital may employ physicians, not just teaching hospitals,
many non-teaching hospitals in New York State receive DME payments, but at a lower rate than
teaching hospitals. A hospital reports the total costs it incurs for DME under separate items on
its Medicare cost report. Payments for IME are unlike payments for DME in that no
corresponding cost items are reported by the hospital on its Medicare cost report. The costs are
therefore not precisely defined or quantified.

Our review covered calendar year (CY) 2000, when New York State paid $992.6 million
($496.3 million Federal share) in GME to 104 hospitals.

OBJECTIVES

Our objectives were to analyze the Health Department’s Medicaid GME payment methodology
and the methods used by New York to establish the amount of funds that teaching hospitals
receive and to determine whether (1) the Health Department followed the approved State plan in
administering the Medicaid GME program, and (2) intergovernmental transfers included any
program funds.

SUMMARY OF FINDINGS

Payment Methodology

The Health Department’s Medicaid payment methodology for GME was established in 1988,
using 1981 data. Since 1988, annual funding levels under this methodology increased each year



                                                 i
using an inflation factor. Of the $992.6 million ($496.3 million Federal share) in GME payments
in CY 2000, $423.6 million ($211.8 million Federal share) was paid for DME and $569 million
($284.5 million Federal share) for IME.

DME payments were based on the portion of reimbursable 1981 salaries; fringe benefits; non-
salary costs; and allocated overhead for residents, fellows, supervising physicians, and hospital-
based physicians associated with services other than exempt units and alternative level of care
units. DME payments were volume-adjusted to 1987 and trended to the rate year by the trend
factor established pursuant to section 86-1.58 of the State plan, less tuition and supporting grants.

IME payments were an estimate of the costs associated with additional ancillary intensiveness of
medical care, more aggressive treatment regimens, and increased availability of state of the art
testing technologies resulting from the training of residents and fellows.
  
Compliance with State Plan

The $992.6 million ($496.3 million Federal share) paid by the Health Department for Medicaid
GME was in compliance with the State plan.

Graduate Medical Education Rates for Teaching and Non-Teaching Hospitals

Because any hospital may employ physicians, not just teaching hospitals, many non-teaching
hospitals in New York State receive DME payments, but at a lower rate than teaching hospitals.
Three hospitals continued to be paid at a higher teaching hospital rate after the hospitals
discontinued their teaching programs. The hospitals were paid a total of $229,725 ($114,862
Federal share) in Medicaid GME funds. Although these payments were allowable under the
State plan, the Health Department may want to examine whether its rate-setting process could be
modified to permit a more targeted allocation of GME payments to certain hospitals.

Intergovernmental Transfers

The Health Department did not make intergovernmental transfers involving GME funds.

RECOMMENDATION

We recommend that the Health Department examine whether its rate-setting process defined in
the State plan could be modified to permit a more targeted allocation of GME payments to
certain hospitals.

HEALTH DEPARTMENT COMMENTS

In its comments on our draft report, the Health Department disagreed with our findings and
indicated that all GME payments adhered to the State plan. The Health Department indicated
that State plan does not reference a hospital’s current teaching status as a condition of receiving
Medicaid GME payments and does not address whether a change in a hospital’s teaching status
affects its eligibility for Medicaid GME payments. The Health Department further indicated that



                                                 ii
the State plan does not permit it to annually review whether teaching hospitals are eligible for
GME funds. The Health Department comments are included in their entirety as an appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We agree with the Health Department’s comments. Based on these comments and additional
documentation provided separate from its response, we revised our finding and recommendation
regarding hospitals’ teaching status.




                                                iii
                                                 TABLE OF CONTENTS
 


                                                                                                                     Page
 


INTRODUCTION........................................................................................................ 1             
   


          BACKGROUND .............................................................................................. 1 
 

              Medicaid Program.................................................................................. 1 

              New York State’s Medicaid Program .................................................... 1 
 

              Graduate Medical Education.................................................................. 1 
 

              Intergovernmental Transfers.................................................................. 2 
 


          OBJECTIVES, SCOPE AND METHODOLOGY............................................ 2 
 

               Objectives .............................................................................................. 2 
 

               Scope...................................................................................................... 2 
 

               Methodology ......................................................................................... 2 
 


FINDINGS AND RECOMMENDATIONS ............................................................ 3 


          PAYMENT METHODOLOGY ........................................................................ 3 


          COMPLIANCE WITH STATE PLAN ............................................................. 4 


          GRADUATE MEDICAL EDUCATION RATES FOR TEACHING 

          AND NON-TEACHING HOSPITALS............................................................. 4 
 


          INTERGOVERNMENTAL TRANSFERS....................................................... 4 
 


          RECOMMENDATION ..................................................................................... 5 
 


          HEALTH DEPARTMENT COMMENTS ........................................................ 5 
 


          OFFICE OF INSPECTOR GENERAL RESPONSE ........................................ 5 
 


APPENDIX

          HEALTH DEPATMENT COMMENTS




                                                                   iv
                                       INTRODUCTION 
 


BACKGROUND 
 


The Office of Management and Budget requested that we review Medicaid reimbursement to
hospitals for medical education because of concerns regarding the growth of the payments and
questions about whether Medicaid funds were involved in intergovernmental transfers.

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

New York State’s Medicaid Program

In New York State, the Department of Health (Health Department) operates the Medicaid
program. Within DOH, the Office of Medicaid Management administers the program. The
Health Department uses the Medicaid Management Information System, a computerized
payment and information reporting system, to maintain claim information used to calculate
graduate medical education payments.

Graduate Medical Education

Medicare is one of the traditional funding sources for graduate medical education (GME).
Medicare funding is authorized under section 1886(h) of the Act. In contrast to Medicare,
Medicaid does not mandate funding of GME. Nevertheless, almost all States have opted to
provide such funding.

New York State’s CMS-approved State plan permits the Health Department to add a GME
component to hospitals’ inpatient rates. New York State funds this program with general budget
appropriations through the Health Department. The program is based on the Medicare design,
whereby funds are distributed based on formulas that consider the number of residents and other
characteristics of each hospital’s teaching program. Similar to Medicare, the Health Department
funds Medicaid GME under two categories – direct medical education (DME) and indirect
medical education (IME).

Payments for DME are intended to help cover costs incurred by hospitals for medical residents
and teaching faculty, including their salaries, fringe benefits, and allocations of overhead. In
addition, it also covers costs associated with hospital-based physicians, who are neither residents
nor teaching physicians. Because any hospital may employ physicians, not just teaching
hospitals, many non-teaching hospitals in New York State receive DME payments, but at a lower



                                                1
 

rate than teaching hospitals. A hospital reports the total costs it incurs for DME under separate
items on its Medicare cost report. Payments for IME 1 are unlike payments for DME in that no
corresponding cost items are reported by the hospital on its Medicare cost report. The costs are
therefore not precisely defined or quantified by the hospitals.

Intergovernmental Transfers

In certain circumstances, Medicaid allows the use of public funds (funds from county-, city-, or
State-owned facilities) as the State’s share of financial participation. Pursuant to 42 CFR
§ 433.51, public funds may serve as the State’s share for drawing Federal funds if the public
funds are appropriated directly to the State or local Medicaid agency or are transferred from
other public agencies to the State or local agency and are under its administrative control. Prior
Office of Inspector General audits found that some States abused this provision. For example,
some States required county providers to return Medicaid payments to the State through the use
of intergovernmental transfers. These States, in some instances, then used the funds for non-
Medicaid purposes.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to analyze the Health Department’s Medicaid GME payment methodology
and the methods used by New York to establish the amount of funds that teaching hospitals
receive and to determine whether (1) the Health Department followed the approved State plan in
administering the Medicaid GME program, and (2) intergovernmental transfers included any
program funds.

Scope

Our review covered CY 2000 DME and IME payments, but did not include capitated payments
made to teaching hospitals by Medicaid managed care organizations. We did not audit the 1981
cost data used to develop the base year rates.

In addition, we did not review the overall internal control structure of the State or the Medicaid
program. Rather, we reviewed only the internal controls that pertained directly to our objective.

We performed fieldwork at the Health Department’s offices in Albany, New York.

Methodology

To accomplish our audit objectives, we:

       •    reviewed Federal laws and regulations, and the State plan;


1
    IME should not be confused with indirect costs ( i.e., allocations of overhead paid under DME).



                                                            2
 

       •	 held discussions with the Health Department officials to ascertain State policies, 
 

          procedures, and guidance related to claiming Medicaid DME and IME; 
 


       •	 extracted paid claims from the Medicaid Management Information System which were
          used in calculating GME payments;

       •	 determined whether hospitals that received Medicaid GME funds were teaching or non-
          teaching facilities;

       •	 calculated the amount of Medicaid GME funds paid to 104 hospitals based on formulas
          confirmed by the Health Department officials;

       •	 identified the amount of Medicaid GME funding paid to non-teaching hospitals; and

       •	 analyzed the Medicaid GME payment methodology to determine whether 
 

          intergovernmental transfers were used. 
 


We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                 FINDINGS AND RECOMMENDATION

The Health Department included Medicaid GME payments in the hospital’s inpatient rates.
DME and IME components were based on formulas included in the State plan and on
information submitted by hospitals. The $992.6 million ($496.3 million Federal share) paid by
the Health Department for Medicaid GME payments was in compliance with the State plan.
Although allowable under the State plan, the Health Department may want to examine whether
its rate-setting process could be modified to permit a more targeted allocation of GME payments
to certain hospitals. We found that three hospitals continued to be paid at a higher teaching
hospital rate after the hospitals converted from being teaching hospitals to non-teaching
hospitals. 2 Finally, the Health Department did not make intergovernmental transfers involving
GME funds.

PAYMENT METHODOLOGY

The Health Department’s Medicaid payment methodology for GME was established in 1988,
using 1981 data. Since 1988, annual funding levels under this methodology increased each year
using an inflation factor. Hospitals must have approved medical education programs to qualify
for DME and IME payments. Both types of payments are integral parts of hospitals’ inpatient
rates. The total medical education component is adjusted for the same inflation rates used to
update the Health Department’s established payment rates per discharge. Of the total $992.6

2
    The hospitals were paid $229,725 ($114,862 Federal share) in Medicaid GME funds.


                                                         3
 

million ($496.3 million Federal share) in GME payments, $423.6 million ($211.8 million Federal
share) was paid for DME and $569 million ($284.5 million Federal share) for IME.

DME payments were based on the portion of reimbursable 1981 salaries; fringe benefits; non-
salary costs; and allocated overhead for residents, fellows, supervising physicians, and hospital-
based physicians associated with services other than exempt units and alternative level of care
units. DME payments were volume-adjusted to 1987, and trended to the rate year by the trend
factor established pursuant to section 86-1.58 of the State plan, less tuition and supporting grants.

IME payments were an estimate of the costs associated with additional ancillary intensiveness of
medical care, more aggressive treatment regimens, and increased availability of state of the art
testing technologies resulting from the training of residents and fellows in the rate year.
  
COMPLIANCE WITH STATE PLAN

Pursuant to section 86-1.52 of the State plan, payments to hospitals shall include, among others,
the direct costs associated with GME. In addition, pursuant to section 86-1.54 of the State plan,
hospital-specific direct operating costs of GME shall be the portion of 1981 salaries, fringe
benefits, non-salary costs, and allocated overhead for residents, fellows, supervising physicians,
and hospital-based physicians associated with services other than exempt units and alternative
level of care units.

The $992.6 million ($496.3 million Federal share) paid by the Health Department for Medicaid
GME was in compliance with the State plan.

GRADUATE MEDICAL EDUCATION RATES FOR TEACHING AND NON-
TEACHING HOSPITALS

Because any hospital may employ physicians, not just teaching hospitals, many non-teaching
hospitals in New York State receive DME payments, but at a lower rate than teaching hospitals.
Three hospitals (Brookhaven Memorial Hospital, Sheehan Memorial Emergency, and White
Plains Hospital) continued to be paid at a higher teaching hospital rate after the hospitals
discontinued their teaching programs. The hospitals were paid a total of $229,725 ($114,862
Federal share) in Medicaid GME funds. Although these payments were allowable under the
State plan, the Health Department may want to examine whether its rate-setting process could be
modified to permit a more targeted allocation of GME payments to certain hospitals.
Health Department officials stated that hospitals with an approved teaching program in the 1981
base year continued to be paid the higher GME rates associated with teaching hospitals. Health
Department officials further stated that other hospitals that initiated a teaching program or
expanded a current teaching program also did not have their rates adjusted accordingly.

INTERGOVERNMENTAL TRANSFERS

The Health Department did not make intergovernmental transfers involving GME funds.




                                                 4
 

RECOMMENDATION

We recommend that the Health Department examine whether its rate-setting process defined in
the State plan could be modified to permit a more targeted allocation of GME payments to
certain hospitals.

HEALTH DEPARTMENT COMMENTS

In its written comments dated July 25, 2008, the Health Department disagreed with our findings
and indicated that all GME payments adhered to the State plan. The Health Department
indicated that sections 86-1.50(f)(1) and 86-1.54(g) of the State plan do not reference a hospital’s
current teaching status as a condition of receiving Medicaid GME payments. Furthermore,
section 86-1.50(f)(2) does not address whether a subsequent change in a hospital’s teaching
status as a condition of receiving Medicaid GME payments. Finally, the Health Department
indicated that the State plan does not permit it, on a prospective basis, to annually review
whether teaching hospitals are eligible for GME funds. The Health Department’s comments are
included in their entirety as an appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We agree with the Health Department’s comments. Based on these comments and additional
documentation provided separate from its response, we revised our finding and recommendation
regarding hospitals’ teaching status.




                                                 5
 

    APPENDIX
 





 
                                                                                          APPENDIX
                                                                                           Page 1 of 3




~STATE OF NEW YORK
..,...STATE
.
....,,.
      ... DEPARTMENT OF HEALTH

RicNrd
Richard F. 0 . - . M.D
           Daines, M.D.
 ~
 Commi:SS:ioner

                                                  25. 2008
                                             July 25, 2008

     James P. Edert
     Regional Inspector General for Audit Services
     Department of Health and Human Services
     Region II
     Jacob Javitz Federal Builcling
                            Building
     26 Federal Plaza
     New Vorl<.
          Vort<, New
                 New YOl1c;
                     York 10278

                                             Ref. No. A-02-04-01015
                                                      A..()2-G4-01015
     Dear
     Dear Mr.
          Mr. Edert
              Edert:

           Endosed are the New York State Department of Health's
                                                          Health's comments
                                                                   comments on    the
                                                                              on the
     Department
     Department of Heatlh
                   Health and Human seMces,             Inspector General's
                                    Services, OffICe of Inspector Generars draft
                                                                            draft audit
                                                                                  audit
            A·02-C4-o1015 on -Review
     report A·02.Q4.()1015
     report                  "Review of Medicaid Graduate Medical
                                                          Medical Education
                                                                  Education Revenue
                                                                            Revenue
     in
     in New  Veri( State:
        New VOl1\. State."

             Thank you for the opportunity to comment
             Thank                            comment.

                                             Sincerely,


                                               C02JJ\~
                                               r.fJM~
                                             Wendy E. Saunders
                                             Chief of Staff

     Enclosure
     Enclosure

    cc:
    cc:      Stephen Abbott
             Stephen
             Deborah Bachrach
             Deborah
             Homer Charbonneau
             Homer  Charbonneau
             Ronald Farrell
             Ronald
             Gail Kencer
             Gail Kerker
             Sandra Pettinato
             Sandra
             Robert W.
             Robert W. Reed
                       Reed
                                                                                              APPENDIX
                                                                                               Page 2 of 3


                        State Department of Health
              New York Slate
                        Comments on the
           Department of Health and Human Services
                   Office of Inspector General
                                  A-02-o4-o1015
               Draft Audit Report A·02-o4-o1 015 on
    "Review of Medicaid Graduate Medical Education Revenue
                                    State"
                       in New York Slate"

The following are the New Yor1c
                           Yoril; State Department of Health's (Department) comments
in response to the Department of Health and Human Services.
                                                      Setvk:es. OffICe of Inspector
GenefaJ                           A-02-C4.()1015 on "Review of Medicaid Graduate
General (OIG) draft audit report A-C2.()4..()1015
Medical Education Revenue ...in New Yor1c
                                      Yorl< State."
                                            State:

OIG
010 Recommendations:

The audit report recommends that New York State:

•   report a $114,862 financial adjustment to eMS for the Federal share of graduate
    medical education funds paid to non-teaching hospitals;
                                                 hospitals:

•   identify graduate medical education funds paid to non-teaching hospitals subsequent
    to our audit period and report a financial adjustment to eMS; and

•              eligibility of each teaching hospital annually.
    review the eligibitity

OeparbnentResponse:
Department Response:

The Department respectfully disagrees with the audit findings
                                                           frtdings and maintains that all
payments for graduate medical education (GME) adhered to the approved State Plan.
The audit report states that GME payments to three non-teaching hospitals during
calendar year 2000 were
                     'Here contrary to the State
                                             Stale Plan, which is not accurate. State Plan
sections 86-1.50 (1)(1) and 86-1.54 (g)(9) direct that
                                                  that GME funding is to be based on
reimbursable 1981 salaries, fringe benefits, non-salary costs and allocated overhead for
residents, fellows, and supeNising physicians; trended 10 the rate year by the approved
trend factor. These sections do not reference a hospital's current teaching status as a
condition of receiving Medicaid GME payments. Furthermore, section 86-150(1)(2)
defines indirect medical education as an estimate of the  the costs
                                                               costs associated
                                                                     associated with additional
                                                                lIeatment regimens and
ancillary intensiveness of medical care, more aggressive treatment
                                           testing technologies resulting from the
increased availability of state of the art testing                              the training
                                                                                     lIaining of
residents and fellows. This section does not address
                                                  address whether a subsequent change in
a hospital's teaching status affects its eligibility for
                                                     for Medicaid GME payments.

Recently approved amendments to the State Plan Plan were made inin 2004 and
                                                                          and in 2007
                                                                                 2007
which updated the costs and statistics utilized to
                                                10 calculate GME  payments. The
                                                             GME payments.      The base
year was updated from 1981 to 2001 for direct andand indirect GME payments,
                                                                   payments. effective    for
                                                                                effective for
periods after April 2004 for increased Medicaid
                                       Medicaid payments,
                                                  payments, and for
                                                                 for periods after
                                                                             after April
                                                                                                       APPENDIX
                                                                                                        Page 3 of 3 



                                                   22

2007    fordecreased
  2007for   deaeasedMedicaidMedicaidpayments.
                                      payments.The    Theupdate
                                                            updatereflects
                                                                    refledschanges in in
                                                                             changes   hospitals'
                                                                                         hospitals'
teaching
  teachingprograms
            programswhich  whichare
                                 arereflected
                                      reflectedininthethepayments
                                                           payments sUbsequently    madeto to
                                                                                  made
                                                                       subsequentty          affected
                                                                                                affected
hospitals.
  hospitals.Finally,      regardingthe
              FIl'l31ty,regarding    theportion
                                          portionofofthe
                                                       therecommendation
                                                            reconvnendationtotoreview
                                                                                 reviewthethe
                                                                                            eligibility
                                                                                              eligibility
ofofeach
     eachteaching
           teachinghospital
                        hospitalannually,
                                 3mualtythe    approved State Plan does not permit the
                                           I the appt'OYE!d State Plan does not pennit the

Department
  Departmenttotoprocess
                    processthese
                               theseupdates
                                      updatesprospectively.
                                                 prospectively.
